<html>
<title> - THE MIDDLE EAST AND NORTH AFRICA: ENSURING RESOURCES MATCH OBJECTIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 THE MIDDLE EAST AND NORTH AFRICA: ENSURING RESOURCES MATCH OBJECTIVES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 13, 2018

                               __________

                           Serial No. 115-150

                               __________

        Printed for the use of the Committee on Foreign Affairs
        

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                      
                      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-422PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>                     
                      

                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
ADAM KINZINGER, Illinois             BRENDAN F. BOYLE, Pennsylvania
LEE M. ZELDIN, New York              TULSI GABBARD, Hawaii
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
ANN WAGNER, Missouri                 THOMAS R. SUOZZI, New York
BRIAN J. MAST, Florida               TED LIEU, California
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable David M. Satterfield, Acting Assistant Secretary, 
  Bureau of Near Eastern Affairs, U.S. Department of State.......     7
Mr. Hallam H. Ferguson, Senior Deputy Assistant Administrator, 
  Bureau for the Middle East, U.S. Agency for International 
  Development....................................................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable David M. Satterfield: Prepared statement...........     9
Mr. Hallam H. Ferguson: Prepared statement.......................    21

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    58
Written responses from the Honorable David M. Satterfield to 
  questions submitted for the record by:
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida, and chairman, Subcommittee on the 
    Middle East and North Africa.................................    60
  The Honorable Bradley S. Schneider, a Representative in 
    Congress from the State of Illinois..........................    64
  The Honorable Adam Kinzinger, a Representative in Congress from 
    the State of Illinois........................................    66
  The Honorable Ted Lieu, a Representative in Congress from the 
    State of California..........................................    68
  The Honorable Brian K. Fitzpatrick, a Representative in 
    Congress from the Commonwealth of Pennsylvania...............    75

 
 THE MIDDLE EAST AND NORTH AFRICA: ENSURING RESOURCES MATCH OBJECTIVES

                              ----------                              


                        WEDNESDAY, JUNE 13, 2018

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order due 
to time restraints of Ambassador Satterfield. And we are so 
honored to have you here.
    Not that we are not honored to have you here, Mr. Ferguson. 
But thank you very much.
    We will get started. Mr. Deutch is at a Judiciary meeting, 
and as soon as he is done with that, he will come right back. 
And we will recognize him for his opening statement at that 
moment.
    After my opening statement and any members who have an 
opening statement, we will hear from our witnesses.
    And, without objection, the witnesses' prepared statements 
will be made a part of the record, and members may have 5 days 
to insert statements and questions for the record subject to 
the length limitation in the rules.
    The Chair now recognizes herself.
    This is now the sixth time that Ted and I have convened 
this particular hearing conducting oversight over the 
President's budget request. It is often difficult to know if 
the request matches the objective, because we are often 
presented with broader generic policy objectives rather than 
strategies to achieve those objectives. I am going to do the 
low voice. And this year's budget request for the Middle East 
and North Africa, sadly, is no different.
    Earlier this year, then Secretary of State Tillerson laid 
out the administration's vision for Syria. I don't think any of 
us would disagree that it did have five laudable objectives. 
Likewise, just a few weeks ago, Secretary Pompeo laid out 12 
objectives in our counter-Iran plan. But I think it is safe to 
say that both of these were policy objective heavy and short on 
strategy. That is to say they were lacking details on how we 
were going to accomplish those objectives.
    This makes it extremely difficult for us as policymakers 
and members tasked with an oversight responsibility to ensure 
taxpayer dollars are used effectively and efficiently to really 
know if the administration is requesting adequate resources to 
carry out its strategy. It is also difficult for us to get a 
full accounting of the support we provide to the Middle East 
and North Africa, given that many different mechanisms and 
accounts are being used to provide our assistance to conflict 
areas and humanitarian crises in the region. In Iraq, in Syria, 
in Jordan, and in Yemen, there is a great need for U.S. 
leadership and U.S. assistance.
    These are old threats, but there are new threats, and there 
are emerging threats that can destabilize the region and damage 
our interests as well. But this budget request seems like it 
does not go far enough to match the priority and the threat to 
our national security with the resources allocated.
    In Syria, the budget request seems to fall short of 
Tillerson's stated objectives. And that is before you take into 
account the fact that the administration has put a hold on $200 
million for Syria stabilization efforts until it completes a 
review. I am all for getting partner nations to increase their 
share of contributions, but in the meantime, we are losing 
critical time, and we are certainly not making progress on our 
Syria objectives if we aren't providing our assistance.
    Likewise, I remain very concerned over our continued 
request for assistance to the Lebanese Armed Forces, the LAF, 
despite very real concerns regarding Hezbollah's influence: $50 
million in this year's request. With Hezbollah and its allies 
making gains in last month's election, it doesn't make sense to 
continue to push the narrative that we are supporting the LAF 
as a counterweight to Hezbollah instead of having used our 
assistance for Lebanon wisely with programs aimed at decreasing 
Iran and Hezbollah's influence.
    Before the elections, our Embassy in Lebanon cut critical 
programs, perhaps out of fear of upsetting the status quo. And 
because of that, we will certainly need the administration's 
request for $3.3 billion in foreign military financing for 
Israel as it faces an increased and more aggressive Iranian 
posture on its borders and many of these other emerging 
threats.
    So I applaud the administration for standing strong with 
Israel and in understanding the sheer magnitude of the threats 
that our closest friend and partner, the democratic Jewish 
state of Israel, faces.
    I do, however, question the administration's decision to 
keep the PLO office open. I have been trying to get an answer 
on the status of the PLO office ever since November when the 
waiver lapsed, which should have forced it to be closed. I 
spoke briefly with Ambassador Satterfield about this just 
yesterday, but Congress and the American public deserve to know 
why the administration is allowing the PLO office to remain 
open. I joined Senator Cruz in sending a letter to the 
Secretary laying out specific questions, and it is my hope that 
we get a full public response. There is no reason why the 
administration should keep this information to itself.
    Moving to Jordan, I applaud the administration for meeting 
the agreed number that is stipulated by our latest memorandum 
of understanding, MOU. The numbers reflect the need to ensure 
that Jordan remains stable and secure. However, I do hope that 
the administration sees the current situation on the ground in 
Jordan as seriously as we do and understands that it may need 
to be flexible with its resources if circumstances dictate. And 
we look forward to His Majesty coming to meet with us very 
soon.
    I was also pleased to see the administration reverse course 
from last year's request and allocate additional funds for 
Tunisia. Ninety-five million dollars for fiscal year 2019 
represents a $40 million increase from fiscal year 2018 
request, but falls far short of what is required, and far short 
of what Congress has appropriated. Tunisia's stability and 
Tunisia's success are of vital importance to the United States 
and the region--failing to ensure its viability would be a 
terrible mistake. We want to work with the administration to 
advance our interests in the region to ensure that we have an 
adequate response to the ongoing crises and to ensure the 
region's stability and security. So I am eager to hear from our 
witnesses on ways that we can work together to achieve all of 
that.
    And, with that, I am pleased to yield to our ranking 
member, Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman, and thank you, 
Ambassador Satterfield and Senior Deputy Assistant 
Administrator Ferguson for appearing today.
    The work of the State Department and USAID is incredibly 
important. I am very grateful to all of our Foreign Service and 
career personnel at both agencies. We ask a lot from these 
people, often sending them to far away and very dangerous 
places. We ask them to do their job, often without the full 
resources that they need. And it is important for us, for this 
Congress, to communicate to them how grateful we are for their 
service. And we ask that you relay that right back to them.
    As we look at today's Middle East, the challenges we face 
are only growing more complex. These growing threats and 
challenges emphasize the need for the United States to develop 
and stay committed to a comprehensive strategy backed by an 
adequate level of funding, so U.S. interests and stability in 
the region can be advanced. I remain very concerned about both 
the administration's lack of a real whole-of-government 
cohesive plan for the Middle East as well as the proposed cuts 
to the international affairs budget.
    For the second year in a row, the administration has sent 
us a budget with a 30-percent cut to a portion of the budget 
that makes up less than 1 percent of our total spending, again, 
against the advice of bipartisan military leaders, bipartisan 
diplomats, and bipartisan elected and former officials. These 
cuts undermine our ability to promote democracy, diplomacy, 
peace, and security, and development in this key region. These 
cuts also send complicated messages to our allies who look to 
the United States for leadership. Our partners want to know 
they can count on us not to retreat from the region and that 
the United States will live up to its commitments.
    Our traditional allies are questioning where we stand 
following our exit from the Paris climate accord, JCPOA, and 
the harsh criticism of our closest partners. But we need to 
work together to confront regional threats and to ensure our 
own interests are protected. And I cannot overstate how deeply 
concerned I am that this administration continues to disparage 
and create unnecessary and petty conflicts with our allies. 
Iran is actively and aggressively spreading its malign 
influence throughout the region. There is no doubt that it is 
in our national interest to counter Iran's dangerous expansion, 
including in Yemen, Lebanon, Iraq, and Syria. Apart from 
exiting the nuclear deal and reimposing sanctions, the 
administration has not provided specifics on how we are going 
to confront the Iranian threat.
    Also seemingly lacking is a strategy for how we are going 
to tackle long-term problems, like what our role in the Syria 
conflict will be after ISIS is pushed from its remaining 
territory in the east. Will the United States continue to back 
the Syrian democratic forces who have been an instrumental ally 
in our fight against ISIS? And if so, to what extent is the 
administration willing to back them if they come into conflict 
with Turkish or pro-regime forces? And I remain deeply 
concerned about the freeze on our assistance to the Syrian 
crisis.
    We have got to continue to support democratic transitions, 
particularly in North Africa. And I am pleased to see FMF 
restored to Tunisia, although not quite at levels necessary, to 
confront the many security challenges.
    Even as we try to assist with security and stability in 
North Africa, we must remind all governments that human rights 
cannot be trampled in the name of security. The United States 
should continue to support economic development in civil 
society as both are the cornerstones to open and democratic 
societies.
    We are also watching as the administration struggles to 
articulate its plan for peace, and peace talks between Israel 
and Palestinians seem to be even further out of reach. Now, I 
supported the decision to recognize Jerusalem as the capital of 
Israel because it is the capital of Israel. But Hamas is trying 
to take advantage, trying to use this decision to end the 
humanitarian crisis in Gaza to sow discontent. Now, I worry 
about the decision to cut humanitarian funding and freeze other 
West Bank and Gaza funding. We can acknowledge the humanitarian 
crisis in Gaza and work with our allies to address it, even as 
we decry Hamas as they focus not on that crisis or the people 
of Gaza but instead on advancing their own terror agenda aimed 
at the civilian population of ally, Israel. We can do both.
    And, Madam Chairman, there is much to discuss today. I 
haven't touched on the Gulf crisis, protests in Jordan, the 
conflict in Yemen or Libya, but I will stop here. I look 
forward to hearing from our witnesses on how the administration 
plans to work for U.S. national security interests on this 
deeply flawed budget proposal.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr.Deutch.
    And now we will yield to members who wish to make an 
opening statement, starting with our friend from New York, Mr. 
Donovan.
    Mr. Donovan. Thank you, Madam Chairwoman and Ranking 
Member. I want to thank you for holding this hearing today to 
ensure resources match objectives in the Middle East and North 
Africa.
    The number of crises that continue to plague the region is 
shocking. The Assad regime in Syria is still a U.S. designated 
state sponsor of terrorism. Assad brutalizes his own people 
through the use of chemical weapons and barrel bombs. The 
people in Gaza are suffering in the midst of clashes between 
Hamas and the Palestinian Authority. Meanwhile, the Palestinian 
Authority could obtain the humanitarian aid that is desperately 
needed for its people if only they would stop making payouts to 
terrorists.
    Iran has developed a geographic land bridge across Iraq, 
Syria, and Lebanon to give itself a clear path straight to 
Israel. It is not just me and my fellow bipartisan members of 
the Foreign Affairs Committee who have identified these areas 
as matters of grave concern. President Trump has spoken on all 
of these issues as well. I am looking forward to hearing from 
the Trump administration witnesses today as to how the 
requested budget will conquer these problems to better serve 
American national security interests.
    And, with that, Madam Chairman, I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Donovan.
    Ms. Frankel, my Florida colleague.
    Ms. Frankel. Thank you, Madam Chair.
    And thank you to the witnesses for being here.
    A couple of issues. I am especially concerned about the 
Syrian stabilization assistance. I look forward to some 
comments on that, and also the humanitarian conditions in Gaza, 
the violence by Hamas, and our response there.
    In particular, I want to bring to your attention--hopefully 
this has been brought to your attention, is what is going on in 
Saudi Arabia, which is very shortly going to lift the ban on 
female drivers, which is a good thing. And there has been a 
slow movement there to try to give--women can actually go to 
movies. I mean, this is a biggie.
    But what happened recently was the arrest of women 
activists who were protesting or activating, trying to get more 
rights, more social rights, for women. And they were arrested 
and accused by the state news agency that they wanted to 
destabilize the Kingdom and breach its social structure and mar 
the national consistency. I mean, which is really--I mean, 
basically, they are calling for an end--this is the women--they 
are calling for an end to Saudi Arabia's repressive 
guardianship system, which requires them to get the permission 
of a male guardian for almost everything. So it is just 
shocking in this day and age. So it seems pretty obvious that 
this administration did not publicly condemn these arrests. And 
I am very curious as to whether or not, behind the scenes, what 
we are saying about this, if anything.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel.
    Mr. DeSantis, another Florida colleague. We own this 
subcommittee.
    Mr. DeSantis. Well, thank you, Madam Chairman.
    We had a wonderful event last month in Jerusalem when we 
opened the American Embassy. It had been American policy since 
1995, never implemented by a series of Presidents.
    But when you talk about resources, a lot of the plans out 
of the State Department were to build something that was going 
to cost maybe hundreds of millions of dollars. It was going to 
take years and years. And to his great credit, the Ambassador, 
David Friedman, had a plan where we utilized an existing 
consulate annex, which I think is going to work very well. 
Minimal expenses to get it ready. And, obviously, there will be 
some things we do over the years. But I think that was a great 
example of doing something with an eye on the taxpayer, and it 
ended up being a phenomenal event.
    As we look forward, certainly, if you are looking at Syria 
policy, I don't know how we can look at what is going on in 
Syria and not want U.S. policy to recognize Israeli sovereignty 
over the Golan Heights.
    Under no circumstance would we want that strategic area to 
be turned over to some remnants running around Syria, whether 
Iranian or Hezbollah or Syrian affiliated with the Assad 
regime. So I am hoping that that will be the next step. The 
Embassy was bold. Let's recognize Golan. And I think we will 
help establish more security in the region as a result.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. DeSantis.
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. And 
thank you for the leadership that you provided all these years 
here on this committee, we appreciate that. And I am sure that 
there are people overseas----
    Ms. Ros-Lehtinen. What do you want?
    Mr. Rohrabacher. I am sure there are people who are alive 
today because--and living peacefully today because of the great 
endeavors that you have made in this committee.
    Let me note I am optimistic about the Middle East. And we 
have a President who went to Saudi Arabia, and the first thing 
he did was far different than what his predecessor did. His 
predecessor bowed to the leadership of Saudi Arabia. Our 
President took the leaders and put them in a room and said: If 
you want to be a friend of the United States, drive the 
terrorists out of your mosque. And, you know, our President has 
had more success than trying to promote what a good guy he is 
by bowing down. And, in fact, we have a much greater chance for 
peace through that act of strength.
    In Iran, same deal in Iran. Same deal when it comes to 
moving the Embassy into Jerusalem. We have a President who has 
made tough decisions and have been strong. It is going to bring 
about a more peaceful situation.
    Thank you very much.
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    And now it is a pleasure to introduce our witnesses. We are 
delighted to welcome back our friend, Ambassador David 
Satterfield, the Acting Assistant Secretary of State for the 
Bureau of Near Eastern Affairs. Ambassador Satterfield 
previously served as the Director General of the Multinational 
Force and Observers. Prior to this, the Ambassador served as 
Coordinator for Iraq, Senior Adviser to the Secretary of State, 
Deputy Chief of Mission to Iraq, chief of mission in Cairo, and 
as the United States Ambassador to Lebanon. Thank you for your 
service, sir, and we look forward to your testimony.
    And next we are delighted to welcome Mr. Hallam Ferguson, 
who serves as senior Deputy Assistant Administrator for USAID's 
Bureau for the Middle East. Prior to joining USAID, Mr. 
Ferguson worked for the International Republican Institute for 
13 years. At IRI, Mr. Ferguson served as the Deputy Regional 
Director for the Middle East and North Africa and previously 
held positions in Afghanistan and Iraq. Thank you for being 
here today. We look forward to your testimony.
    And as I said, your entire testimony is part of the record. 
Please feel free to summarize. And we will begin with you, Mr. 
Satterfield.

    STATEMENT OF THE HONORABLE DAVID M. SATTERFIELD, ACTING 
   ASSISTANT SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Satterfield. Thank you, Madam Chairman, Ranking 
Member. And while I don't want anything, I do associate myself 
with the remarks regarding your leadership of this body.
    Thank you very much all of you for inviting me to appear 
again to discuss the President's fiscal 2019 budget request.
    As members of the subcommittee know well, there are many 
challenges facing this region. In order to meet these 
challenges--and I also am optimistic about the future of the 
region--the President has requested $7 billion in foreign 
assistance. This request addresses critical U.S. national 
security and economic interests with an emphasis on burden 
sharing. It focuses U.S. funding on the enduring defeat of 
ISIS, strengthening democratic institutions, and broadening the 
range of economic opportunities and civil participation 
available to citizens of the region, including women, 
minorities, and the growing number of youth in that region.
    President Trump has been very clear that the United States 
should not and will not bear the sole responsibility for 
funding regional stabilization. Excluding U.S. Government 
contributions, our partners in the global coalition to defeat 
ISIS have contributed more than 3 billion U.S. dollars in 
funding for explosive hazards clearance, bilateral 
stabilization support, and humanitarian assistance to Iraq 
since 2014.
    Additionally, coalition donors have contributed more than 
$540 million to the U.N. Development Agency's Funding Facility 
for Stabilization, the FFS, which is implementing projects in 
liberated areas of Iraq.
    Now, civil conflict in Yemen and Libya make it difficult 
but not impossible for our assistance to reach those in need. 
Iran's maligned behaviors, ongoing support to proxy militias, 
support for terrorist organizations, and development and 
proliferation of ballistic missiles destabilizes the region and 
threatens our partners. These are the challenges. But despite 
them, we have been persistent in our effort to mobilize 
regional and local partners, international partners to join us 
in support, and not have the U.S. taxpayer shoulder the burden 
here disproportionately.
    Following the President's decision on the JCPOA and through 
execution of our comprehensive Iran strategy, we have the 
opportunity to counter Iran's regional influence and enhance 
regional and U.S. security by building new partnerships 
deepening existing relationships.
    With our allies and partners, we share a common assessment. 
I want to underscore: We are not going it alone here, that the 
Iranian regime poses a threat to our collective security, to 
international security, that we must address jointly and 
rapidly.
    Ranking Member, Madam Chairman, I know you are deeply 
concerned about the Robert Levinson case. And I want personally 
to assure you the administration remains committed to resolving 
this case bringing home all Americans, whether in Iran or 
elsewhere, who are unjustly detained.
    President Trump has been clear. The enduring defeat of ISIS 
is one of his primary national security priorities. The 2019 
budget request for the region supports this commitment, with 
substantial foreign assistance to support key regional and 
local partners through civilian-led efforts to stabilize and 
secure areas liberated from ISIS and other terrorist groups.
    The 2019 request for Syria recognizes the support necessary 
for the enduring defeat of ISIS to counter the influence of 
other terrorist groups. ISIS has lost nearly all the territory, 
the so-called caliphate, it once controlled in northern Syria. 
But the fight does continue as we meet. U.S. foreign assistance 
prioritizes stabilizing areas to cement military gains and 
facilitate the safe and voluntary return of those who have been 
displaced.
    The President has requested $200 million to support Iraq. 
Iraq is at a crucial juncture. It has the potential to be a 
center of stability and prosperity for the Middle East and a 
partner for the U.S. We are optimistic about the future of 
Iraq.
    In Yemen, we are working with the international donor 
community to address critical humanitarian needs and help 
create opportunities for durable peace. The 2019 budget request 
includes $43.4 million to support the Yemeni people and their 
institutions, to address development and security issues, 
particularly countering the threats in Yemen from ISIS and al-
Qaeda in the Arabian Peninsula.
    Now, the 2019 budget request, of course, includes our 
enduring commitments to our key partners: Israel, Jordan, and 
Egypt. It also seeks development security assistance funding 
for programs in the West Bank and Gaza.
    Madam Chairman, Ranking Member, the 2019 request supports 
our highest national security priorities in the region, it 
promotes investments to further our regional interests, and it 
encourages support from others for a common burden and a common 
challenge.
    I want to thank you for the support this subcommittee has 
expressed.
    I look forward to answering your questions.
    [The prepared statement of Ambassador Satterfield follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Mr. Ambassador.
    Mr. Ferguson.

 STATEMENT OF MR. HALLAM H. FERGUSON, SENIOR DEPUTY ASSISTANT 
  ADMINISTRATOR, BUREAU FOR THE MIDDLE EAST, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Ferguson. Chairman Ros-Lehtinen, Ranking Member Deutch, 
and members of the subcommittee, thank you for the opportunity 
to testify on the President's fiscal year 2019 budget request 
for the Middle East and North Africa. And thank you for your 
leadership on this subcommittee. I am pleased to appear 
alongside Acting Assistant Secretary Satterfield.
    The Middle East and North Africa remains of key focus of 
U.S. foreign policy and national security priorities, 
particularly as we continue the fight against violent 
extremism. Despite complex political humanitarian and 
development challenges in the region, we see opportunities for 
USAID's work in stabilization, economic, and social 
development, and protecting vulnerable communities.
    As you heard from Administrator Green in April, USAID's 
goal is to end the need for foreign assistance. There is no 
surer path to self-reliance than helping governments be more 
responsive to their citizens and more accountable in the 
management of public resources. To that end, the fiscal year 
2019 request will support democracy assistance programs that 
remain a fundamental element of how we help countries address 
critical development challenges.
    USAID stands in solidarity with the people of the Middle 
East and North Africa as they work to build a stable, more 
prosperous future. With your support, our fiscal year 2019 
request of $1.7 billion for economic and development programs 
will help secure the enduring defeat of ISIS, further strategic 
partnerships, promote good governance, and encourage stability 
and economic security.
    The impacts of the Syrian crisis and ISIS have spread to 
neighboring regions and countries, especially Jordan. Jordan is 
host to more than 660,000 registered Syrian refugees who have a 
significant impact on host communities. With our fiscal year 
2019 request, we will continue to work with the health and 
education ministries to ensure that Jordanian communities, 
including refugees, have access to the same quality of 
services. Additionally, in support of our nearly eight-decade 
partnership with the Kingdom of Jordan, our fiscal year 2019 
assistance will help Jordan accelerate inclusive economic 
growth, improve delivery of public services, and promote more 
efficient management of scarce resources, including water.
    Our commitment to Jordan is evidenced by the new 5-year MOU 
we signed in February. In Tunisia, the birthplace of the Arab 
Spring, the USAID assistance will continue to work with local 
government structures, provide tangible economic and 
educational opportunities for youth, partner with private 
businesses to create jobs, and support sustainable economic 
reform. For example, we currently assist private companies in 
addressing the critical issues of unemployment and 
underemployment, particularly among young people.
    In Yemen, the humanitarian crisis continues to deteriorate 
in the absence of a lasting political solution as we continue 
to see today. As a major donor, we are keenly aware of the 
importance of humanitarian assistance and commercial goods, 
including food and fuel, which moves through the Hudaydah Port, 
and are determined to ensure they are not disrupted.
    As Secretary Pompeo reiterated earlier this week, we expect 
all parties to honor their commitment to work with the United 
Nations in support of a political process to resolve this 
conflict, ensure humanitarian access to the Yemeni people, and 
map a stable political future for Yemen. USAID is in the 
process of scaling up development assistance activities to help 
put the country on a path to recovery and create the conditions 
for lasting peace.
    More details about USAID plans for specific areas are in my 
written statement for the record.
    Before I close, however, I would like to mention one----
    Ms. Ros-Lehtinen. Would you like to put something in the 
record?
    Mr. Ferguson. I am sorry?
    Ms. Ros-Lehtinen. Did you say that you wanted to put 
something in the?
    Mr. Ferguson. No. More details of our plans will be 
included in my written testimony that will be submitted.
    Thank you.
    However, before I close, I would like to mention one 
administration priority: The protection of religious and ethnic 
minorities who have suffered unspeakable harm in recent years, 
including genocide, crimes against humanity, and other 
atrocities. At the President and Vice President's direction, 
USAID is now redoubling its efforts to identify, deliver, and 
distribute the aid that Iraq's persecuted communities 
desperately need. Our commitment to these communities is 
steadfast.
    When minorities are attacked, we rally local and 
international civil society and the private sector to join us. 
We strive to ensure their safety, food security, and 
livelihoods, and to find them a place to call home for now and 
ultimately secure their return. We have already channeled tens 
of millions of the dollars to the region. But we know the need 
is far greater and that we must do more to meet the urgent 
needs of these endangered populations. And we will.
    This month, Administrator Green will travel to Iraq to meet 
with leaders of these suffering communities to personally 
assure them that assistance will soon turn from an inconsistent 
trickle to a steady stream. With the fiscal year 2019 request, 
USAID will continue its assistance to these vulnerable 
communities, particularly religious and ethnic minorities in 
the Nineveh Plains and Sinjar regions.
    Protecting people's rights to choose their own beliefs and 
culture has been at the core of our Nation's values since its 
founding.
    I thank the subcommittee for its continued recognition of 
the importance of this work and for your steadfast support.
    Thank you for inviting me to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Ferguson follows:]
  
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you to both gentlemen with us.
    Ambassador, I will ask you a question, and then two for Mr. 
Ferguson. I will just read them right along so you can ponder 
it.
    Ambassador Satterfield, in your written testimony, you 
state that security assistance to the LAF is the backbone of 
U.S. policy to reinforce Lebanon's sovereignty and the 
government's authority throughout the region. Yet last month 
Secretary Pompeo told us at a full committee hearing that a 
review of U.S. assistance to the LAF is necessary in order to 
ensure that American tax dollars are supporting groups that can 
achieve U.S. interests.
    How do you reconcile these two statements? Is it in U.S. 
interest to have aid to the LAF be the backbone of our policy 
while that aid is under review? And what is the status of that 
review?
    And then, for Mr. Ferguson, H.R. 5141, the United States-
Israel Security Assistance Authorization Act, a tag team effort 
by Mr. Deutch and me, would authorize USAID to sign additional 
MOUs, memorandums of understanding, with Israel in order to 
advance our mutual international development goals.
    Is USAID working on this global MOU with Israel? And 
another bill from Ted and Ile's excellent adventure, H.R. 2646, 
the United States-Jordan Defense Cooperation Extension Act, 
would authorize a Jordan enterprise fund, among other things. 
And given the Kingdom's economic state, its current political 
unrest, vital interest to the United States, and given that 
Congress historically appropriates funds over the MOU numbers, 
will USAID take additional ESF funds to set up this enterprise 
fund?
    So we will begin with you, Mr. Ambassador.
    Ambassador Satterfield. Madam Chairman, the continued U.S. 
robust support to the Lebanese Armed Forces remains one of the 
critical elements of our efforts in Lebanon to achieve not just 
stability in that country, particularly in the south, but also 
to enhance the role of state institutions, particularly 
security institutions, against illegitimate pretenders to that 
role, notably Hezbollah.
    The Secretary's remarks spoke to the fact that we 
continuously review all of our programming, including this 
program, to ensure it remains both in its content, the amount 
of resources dedicated in the outcomes, not just the inputs and 
outputs, advancing U.S. goals. We believe, we continue to 
believe at this point, that support does----
    Ms. Ros-Lehtinen. You don't think they are conflicting. You 
think they are reviewing, but it is still----
    Ambassador Satterfield. We always review these programs.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Ferguson.
    Mr. Ferguson. Thank you, Madam Chair, for your questions. 
Both important subjects.
    First, thank you for the encouragement on exploring and 
negotiating a memorandum of understanding with Israel. We do 
share many of the same objectives in terms of development and 
providing prosperity around the world. And we are, indeed, 
pursuing such an MOU. And we hope to have an announcement to 
that effect in the very near future. Our administrator is 
personally very engaged in this and looks forward to speaking 
more about it.
    On the question of the Jordan enterprise fund, I traveled 
to Egypt a few weeks ago in which--during which I met with the 
Egypt American Enterprise Fund there and came away very 
impressed by the work that they do and very encouraged at the 
possibilities of applying that same model elsewhere. And in 
Jordan, I think it is an issue that we look forward to 
exploring very carefully and fully in partnership with you 
because, as you say, the economic needs in Jordan are great, 
and I believe an enterprise fund is part of the solution there.
    Thank you.
    Ms. Ros-Lehtinen. So good news. Thank you so much.
    Mr. Deutch is recognized for his questions.
    Mr. Deutch. Thank you very much, Madam Chairman.
    Ambassador Satterfield, first of all, I really want to 
thank you for your comments on Bob Levinson and the other 
Americans. And I do appreciate the commitment from you and from 
the Secretary. Bob remains the longest held American hostage. 
And Secretary Pompeo, in his Iran speech on May 22, said the 
return of American citizens held in Iran is a priority.
    I wonder if you can provide any update on how the 
administration plans to engage with the Iranians and our allies 
to ensure the return of Bob and the other Americans.
    Ambassador Satterfield. Mr. Deutch, I would be very happy, 
along with my colleagues, to provide that information to you in 
an appropriate setting.
    Mr. Deutch. Okay.
    Ambassador Satterfield. Very happy to arrange that.
    Mr. Deutch. I appreciate that. We will follow up to arrange 
that meeting.
    Ambassador Satterfield. Thank you.
    Mr. Deutch. Of course, Mr. Ferguson, welcome to the 
committee. Let me start by saying I have great respect for you, 
the work that you did before coming into this position and your 
commitment to this position. But I am still surprised, I think 
a lot of us are surprised, to see you here today as--until 2 
days ago, there was a difference in your Deputy Assistant 
Administrator. And we were notified yesterday that you would be 
here instead.
    And I just wanted to talk about--because there are 
questions, and I would like to just air them out. Some of the 
circumstances that seem to coincide with the departure of your 
predecessor. I have followed the policy change directed by the 
White House in October to directly aid religious minorities in 
Iraq. You spoke about the importance of that this morning. I 
fully concur with your assessment of the importance for us to 
be vigilant.
    I am aware that one of our colleagues wrote a piece least 
week criticizing USAID for slow-walking the delivery of that 
aid. And I now see the Vice President--and as you referred to 
this morning, the Vice President has directed Administrator 
Green to personally go out to Iraq to evaluate the situation, a 
trip that I also understand had been long planned.
    My first question is whether you plan to make any changes 
in the funding to religious minorities in Iraq that has already 
been awarded?
    Mr. Ferguson. Thank you for the question.
    Yes. This is a very important matter, as I mentioned in my 
opening remarks and as you were just discussing.
    We have a variety of assistance mechanisms and streams 
currently under way, including one that is reaching its 
conclusion of the procurement process right now. We expect that 
to be concluded sometime in the next coming weeks. And we do 
look forward to getting that assistance under way.
    In addition, I would add that we are exploring additional 
means for getting resources quickly and rapidly to these 
endangered communities through a variety of options.
    Mr. Deutch. As you complete that assessment, were entities, 
or do you expect any entities that have already been told that 
they won't receive contracts who were asking for sole-source 
contracts, and are there any plans to award sole-source 
contracts in the broad agency announcement process?
    Mr. Ferguson. I am sorry that I can't get into complete 
specifics in terms of the ongoing broad agency announcement, as 
it is an ongoing procurement, and so we can't get into details 
of it. But there are a variety of organizations that we have 
been talking to over a long period of time that are involved in 
that, from faith-based communities to local Iraqi groups. And 
we are looking at a variety of consortiums and coalitions that 
we will be funding through that.
    Mr. Deutch. As you look at those, there is speculation 
whether your predecessor, who I understand was a member of the 
Senior Executive Service was removed because she in some way 
refused to flout USAID's policies and procedures and provide 
contracts to groups, that perhaps the Vice President and others 
wanted, or whether she was simply forced to take the fall for 
following or USAID's established policies and procedures, and 
if those procedures--if there is any truth that those 
procedures need to change, that is a policy decision that I 
would think that we would be engaged in.
    Again, I am just concerned about the message that this 
confusion--and maybe it will be sorted out with the 
announcement as a result of this process--but I am concerned 
about the message that is sent to career civil servants to see 
someone who has spent their career working on behalf of State 
and USAID unceremoniously pushed out of a senior position with 
a political appointee, albeit qualified political appointee, 
installed in their place. I hope that this is just the start of 
this conversation. I think there is a--it is very important 
that this be addressed in a very open way so that we know 
exactly what the circumstances were. And, again, if, in fact, 
there was what is believed to be the case actually happened, it 
is concerning and I think would require this committee to 
engage in further discussion about the policies, whether they 
were appropriate or needed change, and whether this was 
ultimately a political decision made about someone who was 
following those existing policies.
    And, with that, I yield back.
    Thanks, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair. Thanks for your 
leadership and holding this hearing and a bunch of other nice 
stuff. So I will just fill it in with whatever you want to 
hear. So thank you.
    I thank the panel for coming before us today. You know, 
when I ran for Congress in 2010, I had actually gotten back 
from Iraq in 2009. And I had heard, then, the new President, 
President Obama, talk about repeatedly how he wants to leave 
Iraq. And, in fact, at the end of 2011, he did just that. 
Declared victory. He was correct in declaring a peaceful, 
stable, democratic Iraq. But we left Iraq, and we know what 
happened after that, and we are buried in the ramifications of 
that. And that is my concern with kind of where we are at 
today.
    I think, in combating terrorism, we are going to find 
ourselves in a generational fight. I think we have arguably so 
far, and it is going to continue. And so my big concern is, how 
do we deprive the next generation of terrorists of recruits? 
That is the 7 and the 8, 9, 10 years old right now in refugee 
camps or living under oppressive hands. And that is the way to 
starve the next generation of their ability to recruit.
    Mr. Satterfield, I do have a question for you. It was 
reported that you proposed closing American forward-operating 
bases on the Iraq-Syria border as an incentive to get Iranian-
backed militias to withdraw from Southern Syria. Can you 
explain your reasoning here?
    Ambassador Satterfield. Excuse me, Mr. Kinzinger. Could you 
repeat the comment?
    Mr. Kinzinger. Yeah.
    It was reported that you proposed closing American FOBs on 
the Iraq-Syria border as a way to incentivize the Iranians to 
leave.
    If that is true, can you explain what your reasoning is for 
that?
    Ambassador Satterfield. The reports are not correct.
    Mr. Kinzinger. So they are just totally incorrect?
    Ambassador Satterfield. No. They are totally incorrect.
    Mr. Kinzinger. Okay.
    Ambassador Satterfield. Any decision on the presence of 
U.S. military in Syria anywhere would be contingent upon 
execution of the destruction of ISIS and our policy with 
respect to containing and rolling back the presence of Iran in 
Syria.
    Mr. Kinzinger. Okay. So, just to be clear, at no point did 
you propose that as an incentive?
    Ambassador Satterfield. No, it is not correct.
    Mr. Kinzinger. Okay. And we had reports this weekend that 
Iranian-backed forces in Syria temporarily withdrew from the 
southern de-escalation zone, only to return to their post 
wearing Syrian Army uniforms.
    Do you think that the Iranian-backed militias could use a 
similar strategy in other parts of Syria? Should American 
forces withdraw from the region?
    Ambassador Satterfield. I have not seen those reports and, 
frankly, have seen nothing in any channel on such an 
allegation. Iran----
    Mr. Kinzinger. So I must be getting all kinds of 
information from somewhere that is incorrect then.
    Ambassador Satterfield. Iran and Iranian forces remain 
present throughout Syria. Our objective is to see them leave 
all of Syria, not just the southwest. In terms of how one would 
validate that, there are many ways and means to know whether 
any purported withdrawal of Iran, Iranian-backed proxy forces 
has or has not been achieved, not just in our hands but in the 
hands of other critically involved parties in the region.
    Mr. Kinzinger. And do you believe that we can counter Iran 
and Syria while the Assad regime remains in power?
    Ambassador Satterfield. It is an excellent question that 
you pose. I see little indication that this regime is prepared 
to sever its reliance upon connections with Iran and the 
presence of Iranian forces in Syria. But the goal of that total 
Iranian departure from Syria is absolutely where we are.
    Mr. Kinzinger. And then, last year, Iran and Iraq desk at 
the Bureau of Near Eastern Affairs were merged into one 
position. Following President Trump withdrawing from the U.S.--
the U.S. from the JCPOA, the Deputy Assistant Secretary who 
handles the issues has become extremely busy implementing the 
administration's policy toward Iran. This is concerning given 
the recent Iraqi elections.
    Yesterday, Cleric al-Sadr and Iranian-backed militia Chief 
Amiri formed an alliance between their political blocs. While 
the formation of the government is not complete, this is an 
important development toward the Iranians gaining a strangle on 
the Iraqi Government. And, also, I think it is important to 
remind people that a quarter of American soldiers that were 
killed in the war were killed directly or indirectly by Iranian 
influences and forces.
    What actions did State Department take to assist those 
Iraqi officials who were working to ensure Iraq became a pro-
West democracy, instead of a pawn to the ayatollahs in Tehran?
    Ambassador Satterfield. Two comments. First, the process of 
negotiations maneuvering both public and private between the 
various coalitions or would-be coalitions in Iraq is 
exceedingly complex. I would caution strongly on the record, 
nothing you hear or see in terms of declarations of formation 
are anything more than posturing for the moment directed at 
influencing other groups within Iraq. This is a process that 
still has some time to work its way out.
    In terms of our role, we are very much engaged and involved 
at all levels of government in working for an outcome which 
supports what we believe are both Iraqi and U.S. interests in 
stability, in an alignment that does not allow the domination 
of Iraq by any outside force, including Iran. We think the 
chances of getting there are good. But this is an Iraqi 
political process, it still has got quite a ways to play out.
    Mr. Kinzinger. Thank you. And I want to thank you for your 
service to your country, and thank you both for being here.
    And I will yield back at that.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Kinzinger.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you.
    And as have others, I want to thank the chairman and the 
ranking member for having this hearing, and to my--both 
colleagues from Florida--but the chairman, all the good wishes 
as you finish your term here.
    And, again, thank you to the witnesses for joining us 
today.
    As you laid out your assessment, I tried to think of the 
issues in our interests in the region in, essentially, three 
ranked categories. First is humanitarian. We have key 
humanitarian interests in Syria, in Yemen, the impact that that 
is having and potential crises leading to in Jordan and 
Lebanon. We have security interests. As you touched on, we need 
to defeat ISIS. And it is not just ISIS, because behind ISIS is 
al-Qaeda and other groups that are a threat to the region but 
also to our interests around the world and here at home. And, 
ultimately, we have long-term strategic interests. The biggest 
threat I see in the region continues to be Iran, Iran's nuclear 
program, Iran's interventions in conflicts in the region trying 
to spur those conflicts in support of terrorism.
    As we look forward, we are trying to create the stability: 
Stability through diplomacy, stability through development, 
ultimately stability by creating political resilience within 
the--our allies in the region. But I have real concern.
    Ambassador Satterfield, you also touched on a key point 
that one of the challenges in the region is the growing number 
of youth. And I think all three of those interests affect--or 
are affected by the population and the demographics in the 
region because of the youth.
    So my first question to you is, how are we ensuring that 
strategy, our investments in the region are focused on the long 
term and making sure that the youth have opportunities, have 
stable governments, and are not a breeding ground for these 
terrorist organizations?
    Ambassador Satterfield. Mr. Schneider, I would say the 
three critical strategic lines you have outlined all have to 
proceed in parallel. No one in all places at all times can 
trump the others.
    With respect to the youth, let me look at the example which 
I think is probably most distinctive, Egypt. Egypt has one of 
the highest rates of population increase in the world, and the 
rate of rate of population increase grows year on year. The 
challenge posed by this youth cohort bulge, the inverted 
pyramid, as it is sometimes referred to, is a challenge to the 
Egyptian Government. It is a challenge to society, to economic 
opportunity, and to stability and security.
    What are we doing? We have shifted--and here I will turn to 
my AID colleague--over the course of the last decade 
increasingly to programs which are explicitly targeted in terms 
of demonstrable delivery to populations in Egypt who need to 
have the skills necessary both of a technical, nontechnical, 
and professional character to be able to work to contribute to 
the growth of the Egyptian economy. That is a different 
approach than was taken in many years past. It is a shift away 
from bricks and mortar programs toward people and enhancing 
skills in a particular place at a particular time that are 
needed. But it is very much speaking to the kind of long-term 
goals that you have advocated.
    In Yemen, though, our focus is on simply providing feeding, 
potable water, medicine to sustain a population in absolute 
humanitarian crisis.
    Mr. Schneider. Right. And I appreciate that. There is so 
much to talk about. I want to--I don't mean to gloss over it. 
But you also talked about burden sharing. I support the efforts 
to increase the burden sharing. The United States cannot do it 
alone. But I would posit that the United States leadership is 
critically important, not just now but in the long term. And I 
do hope that, as we talk about burden sharing, it is not with 
an eye toward the United States withdrawing from the region but 
working with our allies, working with our partners, bringing 
more resources to the region but securing the United States' 
role.
    How do you see us ensuring and strengthening the U.S. 
position, the U.S. role in the region?
    Ambassador Satterfield. The President is absolutely 
committed to increasing burden sharing both of a financial and 
a presence-on-ground character. But your remarks are absolutely 
correct. What we have found in our exchanges with regional 
international local parties is that a degree of U.S. engagement 
is necessary to elicit and sustain the much greater burden 
sharing by external partners that we see.
    Mr. Schneider. Great. And I will close. And I am running 
out of time. But I do worry very much about Iran's presence in 
the region but, in particular, Syria, as they are increasingly 
developing permanent presence of their forces, indigenous 
missile manufacturing capability.
    And my broad question is, as the President has signaled a 
desire for U.S. withdrawal from Syria, what are the long-term 
implications for us ensuring that Iran does not create a 
permanent presence in Syria threatening all of our neighbors in 
the region but, in particular, our key ally, Israel.
    Ambassador Satterfield. We share exactly the concerns you 
identify. In the words that you have used, we are working with 
all of our partners in the region, including Israel, on how 
best to mitigate, contain, and then roll back that threatening 
Iranian presence.
    Mr. Schneider. Okay. And I just would continue to raise the 
concern. If we are withdrawing from Syria, it is harder for us 
to have influence in the outcomes long term and strategic in 
Syria.
    With that, I yield back. Thank you very much.
    Mr. Zeldin [presiding]. The Chair recognizes the gentleman 
from Florida, Mr. Mast, for 5 minutes.
    Mr. Mast. Thank you, Chairman. I appreciate it.
    You know, I think one of the things that is often missed by 
people in Washington, DC, is failing to acknowledge that what 
our partners want, leaders of other nations, is they want what 
is best for themselves. They want what is best for their bottom 
line. That is a reality of the world that we live in. And I 
thank God personally that we have an administration that cares 
more about the young sergeant or the young lieutenant from a 
place like Paris, Arkansas, or Paris, Illinois, or the tax 
dollars of some constituent from a place like Paris, Indiana, 
or Paris, Iowa, than they do about the well-being of a 
bureaucrat in Paris, France. So I think that is something that 
needs to be applauded here.
    I have a question for each one of you. Number one for you, 
Ambassador, when we talk about the conversation of burden 
sharing and we look at those historical numbers--540 million in 
Iraq, 3 billion, numbers for the future, 200 million--who can 
you say are going to be our top partners for burden sharing? 
What percentage of burden sharing do we expect out of them 
individually? And is that a reasonable expectation that they 
fulfill that?
    Ambassador Satterfield. We have already had key support 
from governments in the Gulf, Saudis, Emiratis, Qataris; from 
the broader international community outside the region, Japan 
as well as European partners.
    I can't give you percentages because we don't express it 
that way. The requirements are considerable. We have identified 
the specific order of magnitude of those requirements, not just 
for broad categories like stabilization, preventing resurgence 
of ISIS and violent extremism, but particular project areas, 
streams of funding where we believe international 
participation, regional and local participation is absolutely 
appropriate. And we continue to engage the highest levels to 
elicit the support necessary to meet those goals. They are in 
the interest of the region itself, not just U.S. national 
interests.
    Mr. Mast. Is that an expression that can be made in a more 
suitable environment?
    Ambassador Satterfield. We would be happy to provide 
greater detail in an appropriate setting.
    Mr. Mast. Thank you.
    Mr. Ferguson, I have a question for you.
    When we are talking about resources and burden sharing, are 
there resources that are being used to encourage those hundreds 
of thousands of Syrians who have fled Syria to share a piece of 
that burden by reengaging in fighting for their own country?
    Mr. Ferguson. Thank you, sir.
    The regional Syrian refugee crisis is a critical one. And 
we have spent, over the course--since the beginning of the 
crisis, $7.4 billion of U.S. taxpayer money supporting those 
refugees throughout the region. The Ambassador may have more to 
say on specific diplomatic initiatives to encourage those 
refugees to take a more direct role in the ongoing fighting 
there. USAID's primary concern and focus is ensuring that those 
people are healthy and comfortable in their current--in their 
temporary residence, and ultimately, some day, we lay the 
groundwork for them to go home.
    Mr. Mast. I thank you for those comments. I will just 
espouse on this a little bit.
    It is troubling to me, a piece of that. The focus on 
comfort for refugees, I get it. I understand it. But I also get 
what I ask when I ask somebody to engage in combat. I know it 
as well as anybody. And I dare say one of the greatest parts 
about American history is the ways in which we have gone out 
there and fought and earned our freedom and earned the style of 
government that we want.
    And if Syria ever wants to be a nation where they can look 
back on themselves for generations to come, those refugees that 
have fled their country have to play the greatest role in re-
obtaining their country and making it into the nation that they 
want it to be. Otherwise, it is not going to be something that 
is long lasting, in my opinion.
    I yield back.
    Mr. Zeldin. The gentleman yields back.
    The Chair recognizes the gentlewoman from Florida, Ms. 
Frankel, for 5 minutes.
    Ms. Frankel. Thank you, Mr. Chairman.
    Thank you again to our panelists.
    I want to go back. I think I raised my questions in earlier 
remarks, and I want to start with what is going on in Saudi 
Arabia, which I think we were all happy to hear about progress. 
I say it, the progress. It is ridiculous it has taken all these 
years, but--so they are due to lift the ban on the female 
drivers, but just recently, they have arrested women activists 
who had been protesting for greater reforms, so--which include 
women not having to get their father or their husband's 
permission to do many different activities.
    So my question to you is, what has the administration done 
in this regard? I know there hasn't been any public 
denouncements, I don't think. But what about behind the scenes?
    Ambassador Satterfield. Ms. Frankel, the administration has 
strongly supported the Crown Prince's vision for what we would 
call a more liberalized society which empowers the over 50 
percent of the Saudi population that is female to play their 
role in the country's economy, society, and future. These are 
worthy goals. We have encouraged and supported the specific 
steps that have been taken so far, some of which you make 
reference to. While they may seem like small and 
extraordinarily late from historical perspective measures, they 
are enormous in the context of Saudi Arabia's history, culture, 
and traditions.
    We understand and we speak to the Saudis regarding those 
issues, which continue to concern us, including the question of 
arrests, which would appear to contradict the broader 
liberalizing ambitions that the Crown Prince and the government 
have laid out. And we are certainly not silent about those 
issues in our dialogue. But I do want to underscore, we regard 
the progress that has been articulated an aspirational sense by 
the Crown Prince as exceedingly positive, worthy of support.
    Ms. Frankel. I mean, if you know, was there specific 
conversations about these recent arrests? In regards to women 
being required to get permission of male guardians for almost 
everything, were there specific discussions on that?
    Ambassador Satterfield. The issue of the arrest has been 
discussed.
    Ms. Frankel. It has. Okay. Well----
    Mr. Ferguson. And I would just add, if I could----
    Ms. Frankel. Yes, please.
    Mr. Ferguson [continuing]. That on the more general 
question of women's rights throughout the region, this is an 
issue that USAID takes extremely seriously and attempts to 
incorporate in its programs in every country, not in Saudi 
Arabia per se, but in Tunisia, Egypt, everywhere we go. It is 
something that our Administrator talks about all the time.
    Ms. Frankel. Thank you very much.
    And I had another question that I pose, and I wanted to get 
your input on that, which is what we have seen been going on on 
the Gaza Strip. We know that there--obviously, there are issues 
with the humanitarian conditions in Gaza. On the other hand, 
some of this<greek-l>, quote/unquote, deg. ``nonviolent 
protesting'' is not nonviolent and is instigated by Hamas 
paying people.
    What, if any, recent steps are we taking in that regards?
    Ambassador Satterfield. Ms. Frankel, we have made very 
clear, including during the events of May 14, when I was in 
Jerusalem, along with others, some from this committee and from 
the U.S. Government, that the responsibility for the 
fatalities, for the injuries that occurred at and on the fence 
that day lies solely with Hamas. Hamas put innocent people in 
line of fire, put them at risk for its own cynical objectives. 
They and they alone are accountable for this. No one else.
    Ms. Frankel. I agree with you on that point. But my 
question is, are we taking any other steps to help? There are 
innocent people in Gaza who are suffering. And what steps are 
we taking?
    Ambassador Satterfield. We have robust, along with the 
international community, contributions of a humanitarian 
character to Gaza. We support efforts by the Government of 
Israel, as well as by the Government of Egypt and others, to 
relieve the humanitarian suffering.
    But my answer has to track back in the end to the fact much 
of that suffering is a direct consequence of actions taken by 
Hamas and what Hamas has not done: Recognize the existence of 
the state of Israel, accepted that only a peaceful political 
negotiating process can yield outcomes, and abandonment 
completely of the use and tools of violence.
    Ms. Frankel. Well, I think--I am. Okay. Yes.
    So I guess my followup to that is, aren't funds being 
frozen? Funds that are going toward humanitarian assistance, 
are they being frozen?
    Ambassador Satterfield. Humanitarian funds continue to 
flow. Previously obligated funds continue to move.
    Mr. Ferguson. I am sorry. If I can add to that----
    Ms. Frankel. Yes.
    Mr. Ferguson [continuing]. Answer.
    The review that is ongoing does cover all assistance going 
into the West Bank and Gaza. Previously obligated funds to 
humanitarian implementers, including the World Food Programme, 
and other implementers continue to run.
    But to your point, ma'am, yes, those resources are on hold. 
No additional resources have been delivered at this time.
    Ms. Frankel. Well, what is the extent of the assets that 
are not being delivered? What are we talking about?
    Mr. Ferguson. I am sorry. I don't have the specific numbers 
of specifically humanitarian resources in the Gaza Strip here. 
We can follow up with you with more direct detail.
    Ms. Frankel. Thank you.
    Ms. Ros-Lehtinen [presiding]. Thank you, Ms. Frankel.
    Ms. Frankel. Thank you.
    Ms. Ros-Lehtinen. Mr. Zeldin of New York. Thank you, sir.
    Mr. Zeldin. Thank you, Madam Chair.
    And Ambassador Satterfield, I agree 100 percent. I 
appreciate your sentiment with regards to your analysis of Gaza 
and the cause of their struggles and the importance of 
supporting Israel's efforts, the administration's efforts, to 
hold what is a terrorist organization accountable and their 
need to recognize Israel's right to exist.
    I want to get clarity on--I just want to follow up briefly 
on Mr. Kinzinger's question. Did you propose--Ambassador 
Satterfield, did you propose closing a base on the Iraq-Syrian 
border?
    Ambassador Satterfield. There was no proposal to take any 
such step. We have been in detailed discussions with 
governments in the region, including that of Israel, on how 
best to address the situation in the southwest, as well as in 
Syria as a whole. But any decision on the U.S. military 
presence anywhere in Syria, A, is a Presidential decision, B, 
depends absolutely on the exit of Iran from Syria.
    Mr. Zeldin. And the reason why we are asking is that it was 
reported--you probably have seen some of the stories where your 
name was referenced as being in a meeting with some other 
nations involved in the region with regards to a proposal to 
close borders.
    Ambassador Satterfield. I am not going to comment further 
on confidential diplomatic discussions, except to note----
    Mr. Zeldin. I just wanted you to understand why we are 
asking this.
    Ambassador Satterfield. Yes.
    Mr. Zeldin. Okay. Going back to the topic on Gaza, West 
Bank, there is a next generation of children in schools being 
educated, receiving textbooks, some of which--many of which are 
provided from the Palestinian Authority. The PA does get 
funding support from UNRWA. We, the United States, provide a 
lot of funding to UNRWA. Some of those textbooks are English 
only. There are many Members of Congress with concerns with 
regards to the content of these textbooks: Showing maps of the 
Middle East without Israel, not teaching their children about 
Judaism. Not just historical, geographical, religious--there is 
a whole perspective of reality that they are not providing to 
that next generation. And we do provide a lot of money to 
UNRWA, and that money, in large respects, end up in providing 
for funding these textbooks.
    So what is, either of you want to just share your 
perspective of what you are observing and what we can do to 
better leverage the money to get the results of filling in the 
gaps of what is not getting covered?
    Ambassador Satterfield. What you address here is a long-
standing concern. Whether from the PA or from UNRWA, the issue 
of incitement through educational materials, it is decades old. 
We have addressed this over a number of administrations. It is 
among the concerns that we have regarding both the PA as well 
as UNRWA itself.
    And when you make reference to the burden of UNRWA funding 
last year, calendar year, the U.S. provided 34 percent of the 
funding to UNRWA. The President has made very clear that is an 
inappropriate burden on the United States in terms of the 
magnitude of the monies. But perhaps more importantly, the 
fundamental structures of UNRWA from the budget model, such as 
it is, to the mission and mandate require deep examination and 
consideration.
    Mr. Zeldin. I appreciate that answer. I tend to agree that 
the oversight, the accountability, the auditing of how our 
funds are being used, the better leverage of the money that is 
being provided to get the results that we are looking for. Can 
you speak to--is there anything you can share with regards to 
the English-only supplement and how that might be filling in 
any gaps that we are not seeing otherwise?
    Ambassador Satterfield. I would have to come back to you on 
that specific question.
    Mr. Zeldin. Fair enough.
    There are English-only supplements that are provided to 
teachers, and I would encourage anyone involved in the process, 
whether it is the teacher, anyone responsible for supervising 
or hiring that teacher, to the PA, UNRWA, the entire chain of 
whether it is funding, drafting textbooks, approving 
curriculum, and the standards is to ensure that some of those 
gaps get filled.
    If English-only supplements are being provided, I think it 
is important for the teachers to be using them. So there is a 
lot here that goes beyond just accountability, auditing, better 
leveraging our money. We can fund the material. We can make 
sure it gets in the teachers' hands. It is important that the 
teachers are actually using it and it is not just getting 
shelved and they are not participating in training. And I would 
look forward any future opportunities to work with either of 
you gentlemen on getting better results with our funding and 
filling in those gaps in the region.
    Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Zeldin.
    Mr. Cicilline from Rhode Island.
    Mr. Cicilline. Ambassador Satterfield, I want to go back to 
that issue of the Palestinians. I want to be very clear with 
this. Are you saying that all funding is frozen to the 
Palestinians, both UNRWA funding and other funding?
    Ambassador Satterfield. Already obligated humanitarian 
assistance, what remains in those channels continues to flow 
through implementers. New assistance is frozen.
    Mr. Cicilline. So when you say ``new assistance,'' money 
that was allocated for 2018 has been frozen?
    Ambassador Satterfield. All previously appropriated funds 
other than those obligated for humanitarian----
    Mr. Cicilline. Previously appropriated or previously 
obligated?
    Ambassador Satterfield. Previously appropriated.
    Mr. Cicilline. Okay. Because we have reports from UNRWA 
that they are running a $260 million deficit because of frozen 
funds. Food from the World Food Programme will end at the end 
of the month, leaving 350,000 people without food. You agree 
with that assessment?
    Ambassador Satterfield. I cannot comment on those numbers.
    Mr. Cicilline. Okay. That 700 schools will close that 
provide education to 270,000 students and that Hamas has 
offered to open the 700 schools, which mean those young people 
will be exposed to the worst kind of extremism possible. So you 
would agree that--well, let me ask this. You can't dispute 
those facts because you don't have knowledge of it?
    Ambassador Satterfield. On the issue of education, I can 
indeed comment.
    Mr. Cicilline. That 700 schools are closed?
    Ambassador Satterfield. By end of July, we understand, from 
UNRWA, the contracting will need to be entered into for the 
August startup of schools, which they support. We have sought 
from UNRWA a definition of what the order of magnitude of the 
fiscal gap here may be.
    With respect to an assertion that Hamas possesses the 
resources to open UNRWA-funded schools in Gaza, I simply can't 
comment.
    Mr. Cicilline. Okay. So what is the status of the review of 
UNRWA funding? Who is conducting it? What is the current 
status? What are the data points in making a determination? Who 
is doing it?
    This seems to be generating a significant humanitarian 
crisis that could undermine rather than advance the national 
security interests of our own country and Israel. So I----
    Ambassador Satterfield. The review is under way.
    Mr. Cicilline. By whom?
    Ambassador Satterfield. The National Security Council is 
leading the interagency community in that review. It will make 
recommendations ultimately to the President.
    Mr. Cicilline. And when is that expected to be concluded?
    Ambassador Satterfield. I cannot give you a time line, sir.
    Mr. Cicilline. Ambassador Satterfield, how does the 
administration's budget and policy goals reflect its position 
on Egypt's crack down on personal freedom, civil liberty, and 
nongovernmental agencies, which I consider to be very, very 
serious?
    Ambassador Satterfield. We are sensitive too, have 
discussed with the Government of Egypt the impact of what you 
describe, civil society restrictions, other steps the 
government and its authorities have taken on overall long-term 
stability and security of Egypt.
    At the same time, we regard Egypt as a vital, critical 
pillar of security and stability, not just for the region but 
also for Europe and for the United States. And our dialogue 
with Egypt touches on both those issues, the vital national 
security role--U.S. definition--Egypt plays, as well as our 
concerns over the matters of civil society, freedom of speech, 
and activity.
    Mr. Cicilline. Ambassador Satterfield, finally, you, in 
response to Congresswoman Frankel's question about the plight 
of women in Saudi Arabia, spoke a little bit about the 
Department's budget and policy objectives. And I would like to 
hear your thoughts on how the budget request, which very 
significantly cuts funding for diplomacy and programs that 
would impact the rights and well-being of women and girls, 
helps to achieve the mandate of the State Department's Office 
of Global Women's Issues, which represents the aim of the 
United States to promote interests, such as ending gender-based 
violence and child marriage, advancing women's economic 
empowerment, and promoting women's active roles in peace and 
security, which seem hard to achieve those objectives with deep 
cuts in programs that fund efforts that are intended to enhance 
the rights and well-being of women and girls, I would like to 
know how you reconcile those.
    Ambassador Satterfield. With respect to Saudi Arabia----
    Mr. Cicilline. No. No. Broadly.
    Ambassador Satterfield. Broadly speaking, we believe we 
have the resources required to continue with the active 
promotion of those goals.
    Mr. Cicilline. And, finally, so the deep cuts--I mean, it 
is sort of a curious answer. We made a substantial investment 
in these programs to achieve that objective. We have deep cuts, 
and you think we can still achieve them. But I take your 
answer.
    My last question, then, Ambassador Satterfield, is what the 
status of the $200 million marked for the Syrian stabilization? 
I know it has been on hold. What is the current status of it?
    Ambassador Satterfield. It continues to be subject to 
review.
    Mr. Cicilline. Thank you.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Ambassador Wagner of Missouri.
    Mrs. Wagner. I thank you, Madam Chairwoman, for hosting 
this hearing.
    And thank you to our witnesses for their service.
    I appreciate the subcommittee's commitment to our duty as 
Members of Congress to examine how the U.S. is allocating its 
finite resources to confront a range of threats in the Middle 
East.
    Mr. Ferguson, in 2016, USAID used $20 million from the 
Complex Crisis Fund to mitigate the strain that an influx of 
Syrian refugees imposed on Jordan's water resources.
    Can you explain and evaluate how USAID implemented this 
money?
    Mr. Ferguson. Yes.
    Much of USAID's approach to supporting Jordan, a critical 
ally, is indeed to alleviate the pressures placed on local 
communities by the refugees. And the number that I referenced 
earlier, over $7 billion spent throughout the region, a large 
portion of that is in Jordan, not just through the specific 
allocation that you are referring to.
    Mrs. Wagner. How would you evaluate that? Quickly.
    Mr. Ferguson. So, on that specific instance, I will have to 
return to you with more detail. I am not intimately familiar 
with that.
    Mrs. Wagner. I am very interested in the fund. And vis-a-
vis my genocide and atrocities legislation, how it is being 
used by State and how we can better use it in the future going 
forward, especially in the areas of prevention. To that point, 
Mr. Ferguson, the administration has indicated that it can use 
the Economic Support Fund to support crisis response activities 
that Congress funds through the Complex Crises Fund.
    In your experience, how has the Economic Support Fund been 
used to respond to my anticipated humanitarian crises in the 
Middle East? And is the Economic Support Fund the most 
efficient way to fund regional crisis response?
    Mr. Ferguson. We use economic support funds for a variety 
of programs throughout the region. And as it intersects with 
crises, as we see many in the Middle East, the ESF funds are 
primarily used to attempt to alleviate the longer term 
underlying drivers of those crises. So, in Yemen, for example, 
a terrible humanitarian crisis, we are using ESF funds 
primarily to address the long-term drivers in terms of state 
collapse there to prevent the much more immediate humanitarian 
issues.
    Mrs. Wagner. And immediate humanitarian issues would come 
under the refugees and what happened, for instance, with the 
Syrian refugees in Jordan and such.
    You know, I do want us to make sure that we are 
communicating with the administration the difference between 
the Complex Crises Fund and the ESF, the ESF being, as you well 
stated, Mr. Ferguson, a longer-term look at crisis mitigation 
in the Middle East and across the globe.
    I was appalled and, to be honest, deeply confused to learn 
that Syria took the reins of the U.N. disarmament forum at the 
beginning of this month. As we all know, Syria's proliferation 
activities in chemical weapons, ballistic and cruise missiles, 
and likely biological weapons are well documented. Ambassador 
Satterfield, how will the State Department counter mixed 
messaging from the U.N. And roll back the development of banned 
weapons in its Syria programming?
    Ambassador Satterfield. We were extremely involved, prior 
to that assumption by Syria, that position. And we made public 
very vigorously, in the voice of our mission in New York our 
outrage at that step. It is wholly incompatible with the 
objectives of that organization.
    Mrs. Wagner. I couldn't agree more. I also am, like I said, 
appalled and find it abhorrent that Syria, Syria, could take 
the reins of the U.N. disarmament forum.
    Ambassador Satterfield. We share that view.
    Mrs. Wagner. Any further discussion regarding this or a 
reevaluation or a revisit on this?
    Ambassador Satterfield. It will not impact the 
international work to identify and hold accountable the Syrian 
regime for abuses which it undertakes.
    Mrs. Wagner. According to the United Nations, North Korea 
has been supplying Syria's chemical weapons program. What 
impact will our new negotiations with North Korea have on 
nonproliferation issues in the Middle East, do you think?
    Ambassador Satterfield. I will have to take that question. 
We will respond to you.
    Mrs. Wagner. I would appreciate that, especially since we 
are all focused on the Korean Peninsula right now and obviously 
nonproliferation issues as a whole.
    So I thank you, and I yield back the remainder of my time.
    Mr. Zeldin [presiding]. The gentleman yields back.
    The Chair now recognizes the gentleman from New York, Mr. 
Suozzi, for 5 minutes.
    Mr. Suozzi. Thank you, Mr. Chairman.
    Ambassador Satterfield, thank you so much for being here 
today. A lot of questions that have been asked about Syria, and 
I just want to follow up on some of those questions as well.
    I am concerned about that we don't have a strategy overall 
or we don't know what the strategy is regarding Syria. I 
supported the President's decision to launch the airstrikes in 
Syria in response to the chemical attacks by the Assad regime. 
But I am concerned about knowing what the comprehensive 
strategy is. And by not having a comprehensive strategy, we are 
really empowering Russia and Iran in the process.
    So, in response to my colleague, Mr. Cicilline, you said 
earlier that the $200 million stabilization fund is on hold and 
still under review.
    So what is being reviewed? What is the decision point 
regarding that money? And I will let you answer that first.
    Ambassador Satterfield. The President has made clear we 
wish to destroy as rapidly as possible the remaining presence 
of ISIS in Syria, the so-called caliphate. And that process is 
well under way as we are speaking.
    The President has also made clear in parallel that the 
burden of preventing the resurgence post-destruction of ISIS, 
of either ISIS or another violent extremist group in Syria, 
lies primarily with regional and local forces who are most 
directly affected by that phenomenon. This is a question both 
of financial support but also literal physical support for 
stabilization for continuing the mission. We engage with all of 
the States in the region toward accomplishment of those two 
objectives by the President.
    Mr. Suozzi. Okay. So, now, you say the President has been 
clear. But the President has also sent some signals that the 
U.S. Forces may be withdrawing from Syria. So is that a 
possibility? Is there a timeline for that? Was that being 
discussed? And how does that line up with our goals similar to 
what you just mentioned about the effect to try and limit 
Iranian forces in Syria and to limit Russia's influence in 
Syria?
    Ambassador Satterfield. The President remains instructing 
us to continue the ISIS campaign and to continue to solicit the 
greatest degree of support possible from regional, local, and 
international parties for the enduring ongoing mission after 
that defeat.
    Mr. Suozzi. So are you saying that right now there is no 
consideration of withdrawing American forces from Syria?
    Ambassador Satterfield. I have described the President's 
position as best I can.
    Mr. Suozzi. Okay. And when you talk about the regional 
forces, are you talking about an Arab coalition in Northern 
Syria? And how will that affect our relationship with Turkey in 
the process?
    Ambassador Satterfield. We are looking at regional and 
local forces to take on their share of responsibility for 
stabilization in Northern Syria post-defeat of ISIS. We have a 
very robust dialogue with the Government of Turkey on issues in 
Northern Syria that are of particular concern to the Turkish 
Government. And we don't see the two as contradictory.
    Mr. Suozzi. What, if you could, would you say should we be 
looking at over the next 6 months? What is going to--what are 
we looking at? What are the big issue--what are the big 
decision points over the next 6 months?
    Ambassador Satterfield. Destruction of ISIS.
    Mr. Suozzi. That is the only one--number one priority.
    Ambassador Satterfield. It is the number one priority.
    Mr. Suozzi. And is there any other priority related to Iran 
and Russia at this time?
    Ambassador Satterfield. We obviously are extensively 
engaged in our Iran strategy with affecting Iran's ability to 
sustain maligned behaviors in the region and beyond, to be able 
to resume an enrichment program, and to continue with the broad 
range of actions which the U.S. regards as fundamentally 
threatening to us, to our friends and allies of the 
international community. That is a key policy focus of the 
United States.
    Mr. Suozzi. So how does that manifest itself specifically 
in Syria? How does our concern about Iran manifest itself in 
Syria?
    Ambassador Satterfield. We are in discussion--and greater 
detail can be provided in an appropriate setting--with key 
involved parties in and around Syria with respect to how best 
to roll back the Iranian threat posed by, present in, and 
through Syria.
    Mr. Suozzi. Okay. Thank you.
    I yield back my time.
    Mr. Zeldin. The gentleman yields back.
    The Chair now recognizes the gentleman from California, Mr. 
Rohrabacher, for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Thank 
you to our witnesses.
    Let me just note the expression that we heard earlier of 
the compassion--tears of compassion about the humanitarian 
situation on Gaza. Let me just note that, as long as those--the 
leaders in Gaza are allowing their resources to be spent on 
tunnels--they go into Israel in order to put terrorists in 
Israel--as long as they are allowing rockets to be shot into 
Israel--those tunnels, I have visited them. They are very 
expensive, and those rockets certainly are not inexpensive. We 
should not be in any way concerned that we are shortchanging 
the humanitarian needs for governmental or leaders of a given 
area that spend their money on rockets and tunnels.
    So, with that said, is this the--where do the Kurds fit 
into all of this? Could this not be--I happen to believe the 
turmoil we face in the Middle East is not due to Israel but is 
due to the fact that, 100 years ago, that the Western colonial 
powers decided to create countries out of nothing like the 
country of Iraq that supposedly exists.
    Isn't it time that maybe we try to set things straight? 
Maybe permit the Kurds and other--and nationalities there, like 
the Baloch in Iran. Shouldn't we try to, in some way, deal with 
that instability that was created so long ago?
    Ambassador Satterfield. Mr. Rohrabacher, we could spend a 
great deal of time on the issue of the Sykes-Picot and where it 
is 100 years later.
    But our position, our policy, is quite clear. We support 
Syria. We support Iraq. We support Iran as integral united 
states within their existing borders. We believe that is a 
correct position based exactly on the issue of stability, vice 
instability, security, vice insecurity.
    Mr. Rohrabacher. I understand that, and I certainly commend 
the professionalism that that answer reflected. But let me just 
note, I don't think that works. And I think that we have seen 
it is not working. And perhaps we should pick our friends and 
just say the Kurds are our friends, and let's see what we can 
do to help them--whether or not that--whatever that creates 
among the make-believe country of Iraq would be less relevant 
than having the Kurds as a force in that part of the world.
    Now, Turkey, could you give us--do you think Turkey will be 
playing any kind of a positive role? Or are we worried that 
Erdogan is going in exactly the wrong direction?
    Ambassador Satterfield. I can speak to our engagement with 
Turkey with respect to Syria. There we have been engaged over 
the last many months to try to achieve a resolution, an 
aspirational plan dependent on conditions on the ground, in 
which Turkish concerns, which are real, and we respect with 
regard to terrorism and attacks on it across their southern 
border with Syria, are properly addressed, as well as our 
concern that stability in Syria be sustained and that our 
campaign to defeat ISIS not be interrupted, as was the case 
some months ago.
    With respect to the hypothetical you pose on the broader 
issue of direction to Turkish policy, my colleagues from the 
European Bureau can respond in greater detail. But I can simply 
tell you we regard Turkey as a critical NATO ally, as a part of 
Europe. We wish to see Turkey advance and prosper within those 
frameworks.
    Mr. Rohrabacher. I understand. That is great--again, more 
professional approach. Perhaps the more revolutionary approach 
might be--might end up with a better result, which is the 
approach that I am suggesting.
    Let me note that, when you are talking about partners and 
that this administration is looking for partners, I would hope 
that, when we look at Iran, we look for partners there but not 
in the government, not in the established order, but the fact 
that you have people in Iran who are our allies. There are more 
Kurds in Iran than there are in Iraq. We have got Azeris in 
Iran and Baloch in Iran and young Iranians. So, if we are 
looking for people to share the burden and we are looking for 
partners, I hope that we look for those people inside Iran who 
are willing to be our partners. And they are anxious to do so.
    Thank you very much. Again, we appreciate your service, 
both of you. And we appreciate the professionalism that you 
reflect. And we will try to get the job done as partners with 
you.
    Thank you.
    Mr. Zeldin. The gentleman yields back.
    The Chair now recognizes the gentleman from California, Mr. 
Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chair.
    Thank you, Ambassador Satterfield, for your service and for 
being here today.
    I would like to talk to you about Yemen. In April this 
year, you testified before the Senate Foreign Relations 
Committee, and I will quote what you said. You said: ``I will 
be quite explicit. We have told the Emiratis and the Saudis 
there has to be no action undertaken that would threaten the 
Port of Hudaydah.'' Right now, UAE is launching a military 
offensive on Hudaydah. The reason that you said what you said, 
and the reason the administration took that position I believe 
was threefold. First, the U.N. itself says that such an 
operation could result in 250,000 civilian causalities. Second, 
a prolonged assault on Yemen's main port would severely 
jeopardize the delivery of humanitarian aid to the whole 
country making what is already the world's humanitarian crisis 
somehow even worse. And, third, it will instantly set back any 
progress that has been made to reach a diplomatic solution to 
this seemingly endless conflict.
    So my first question to you is what has changed since your 
April statement and today?
    Ambassador Satterfield. Mr. Lieu, we continue to expect all 
parties to this conflict to honor their commitments to work 
with the United Nations and support a political process, not a 
military process, to resolve this conflict and to ensure the 
critical goal of continued humanitarian access.
    We are a major donor of humanitarian aid, and we are very 
concerned with the situation of the Yemeni people. We are 
keenly aware, as we have spoken to in the past, Mr. Secretary 
of State has spoken in the past, of the importance of Hudaydah 
and Saleef Ports, and we are determined to ensure that 
operations there are not disrupted for all the reasons you and 
this committee well understand.
    We are closely following the developments you refer to 
around Hudaydah. The Secretary has spoken with Emirati leaders. 
He has made clear both our desire to address their security 
concerns and to preserve the free access to humanitarian 
critical commercial supplies through that port. We are also in 
close touch with U.N. agencies and with the U.N. Special Envoy 
Martin Griffiths with respect to his interests and his dialogue 
with the Houthis.
    Mr. Lieu. Thank you for that.
    So let me ask this another way.
    In April, the Trump administration opposed military action 
undertaken by UAE and Saudi Arabia toward Hudaydah. Did that 
position change, or did UAE and Saudi Arabia do this despite 
the opposition from the Trump administration?
    Ambassador Satterfield. As the Secretary said in the 
statement issued by the Department, we have been in touch with 
the UAE leadership. We understand their security concerns. But 
in parallel with that understanding, we have made clear there 
should be no interruption of access through the ports.
    Mr. Lieu. Okay. Let me try this a third time.
    Does the Trump administration support or oppose this 
military offensive by UAE on the Port of Hudaydah?
    Ambassador Satterfield. We have been very clear with the 
Saudis, the Emiratis, and with Yemeni officials, all of them at 
every level, that destruction of critical infrastructure, 
disruption of the delivery of vital humanitarian aid, remains 
unacceptable.
    Mr. Lieu. All right. Followup question.
    Could you tell us how the U.S. is prioritizing U.N. 
negotiations for peace efforts in Yemen? I believe you 
understand, as well as the other stakeholders, that there is no 
military solution. What would you see as their path toward 
peace in Yemen?
    Ambassador Satterfield. The path toward peace in Yemen are 
arrangements that at first addressed the critical humanitarian 
requirements of the Yemeni people; secondly, bring down the 
level of violence and confrontation to the point that real 
negotiations amongst all of the parties involved can begin.
    Our understanding is that, with respect to the Port of 
Hudaydah, the U.N. Envoy was, remains in the position of 
proposing to the Houthis, resolutions which could spare threats 
to the port but that the Houthis have not responded at this 
time to those proposals.
    Mr. Lieu. Thank you.
    Is the U.S. assisting in this military operation in 
Hudaydah?
    Ambassador Satterfield. No.
    Mr. Lieu. Okay. As you know, the State Department lawyers 
under the Obama administration undertook an inquiry as to 
whether U.S. military support for a Saudi-led coalition 
amounted to aiding and abetting war crimes.
    Can you give us a copy of that memo that the State 
Department lawyers wrote on that issue?
    Ambassador Satterfield. I will take your request.
    Mr. Lieu. All right. Thank you.
    Can you tell us what they concluded in that memo?
    Ambassador Satterfield. Without reference to the existence 
or nonexistence of such a specific memo, I will take the 
request back.
    Mr. Lieu. Okay. Thank you.
    I yield back.
    Mr. Zeldin. The gentleman yields back.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Ambassador Satterfield, the humanitarian situation in Gaza 
has deteriorated. ``Dramatically'' doesn't even begin to 
describe it. It is catastrophic: 95 percent of water is unfit 
for human consumption; 53 percent of people live in poverty, 
which is up from 38 percent in 2011; 44 percent unemployment, 
highest recorded unemployment rate in the world.
    And then when we look at how it affects people's lives: 
140,000 people would lack emergency food assistance if our 
assistance and other assistance were cut off; 42,000 patients 
would lack essential access to any kind of rudimentary 
healthcare system, let alone surgery and the like; 50,000 
youths lacking access to life skills; and 12,250 people who 
would lose paid entrepreneurship opportunities with a freeze or 
an end to our assistance.
    What is the counterargument to that in terms of it is time 
to cut off assistance or run the clock on the fiscal year 2017 
funding levels provided by the Congress?
    Ambassador Satterfield. That there is absolutely no 
challenge.
    Mr. Connolly. I can't hear you, sir.
    Ambassador Satterfield. There is no challenge from the 
administration to the gravity of the humanitarian suffering in 
Gaza.
    Mr. Connolly. You agree with what I just enumerated?
    Ambassador Satterfield. I agree with the magnitude of the 
humanitarian suffering. What I would note is it is an 
international responsibility, not solely one on the shoulders 
of the United States, to address the real humanitarian needs in 
Gaza. It is a need that the United States has disproportionally 
borne responsibility for many years. But I would also, sir, 
reflect on why the situation in Gaza is as it is. It is 11 
years of governance by a terrorist organization that has chosen 
to use its resources, chosen to use parts of international 
assistance for the furtherance of its military goal, which is 
threatening, if not aiming, for the destruction----
    Mr. Connolly. Ambassador Satterfield, American generosity 
has overlooked that time and time again in the Post-World War 
II era, including, I might add, with North Korea. Even in the 
midst of unbelievable human rights violations in North Korea by 
this dictator and his father and his grandfather before him, 
the United States found itself providing, for example, 
humanitarian food assistance so that people didn't starve to 
death, irrespective of the politics of the regime. Do we have a 
different standard for the Gaza because you don't like Hamas? I 
don't like Hamas either. But there are people who are 
suffering, as you and I both agree.
    Ambassador Satterfield. We are making an assessment.
    Mr. Connolly. I am sorry?
    Ambassador Satterfield. We are making an assessment of what 
U.S. assistance is appropriate for Gaza, West Bank in 
conjunction with our emphasis on burden sharing by regional 
parties which are directly affected by this.
    Mr. Connolly. Ambassador Satterfield, I agree with that. I 
think the United States absolutely should assist in burden 
sharing. It shouldn't just be disproportionately our burden. I 
agree. And I think the objections to the Hamas government are 
legitimate and need to be registered.
    But we have to also look at the suffering of the people in 
the Gaza. We can't just decide: Because of your political 
structure, you are going to suffer, and we don't care. And 
right now, as I understand it, you have undertaken a review of 
our assistance to the Gaza starting in January. That review 
began in January. Is that correct?
    Ambassador Satterfield. Yes.
    Mr. Connolly. Sir, it is now June. And as I understand it, 
you have declined to give us any timeline for when we might 
expect completion of that review and new policy recommendations 
coming out of it. And as I said, meanwhile there is a freeze, 
is there not, on the assistance going to the Gaza?
    Ambassador Satterfield. Except for currently or previously 
obligated funds, yes, sir.
    Mr. Connolly. And how would you respond to the critics who 
say that this review is really subterfuge for, you know, 
running the clock until the fiscal year 2017 appropriation 
expires in September?
    Ambassador Satterfield. The review is at the direction of 
the President. It will answer ultimately to the President in 
terms of decisionmaking. And it is based upon what is the most 
appropriate use of U.S. taxpayer resources to effect U.S. 
strategic objectives wherever the review may be, Syria, Gaza, 
West Bank.
    Mr. Connolly. Well, I am sure that will bring great comfort 
to the human suffering in the Gaza.
    I yield back.
    Mr. Zeldin. The gentleman yields back to the Chair.
    The Chair is going to recognize himself for 3 minutes.
    I just want to make a note to committee members. We do have 
a hard stop here at the committee at noon. After I recognize 
myself for 3 minutes, I will be recognizing Ms. Frankel for 3 
minutes and then Mr. Deutch. And then we will be concluding the 
subcommittee meeting. That is the plan.
    The Chair recognizes himself for 3 minutes.
    If we can move to the situation we are all witnessing with 
the protesters in Iran. And if you could just share your 
thoughts, your reflections on what you are seeing. A lot of 
people within the country are speaking out. They are 
protesting. There is a crackdown on the government.
    What are we seeing in recent weeks and months with regards 
to Iran?
    Ambassador Satterfield. The protests you refer to are 
extremely interesting because, unlike the protests of previous 
years, they are not addressed to any particular official or any 
particular movement, conservative, radical, moderate. It is 
about the structure of economics, the structure of finance, 
employment, jobs, life in general in Iran. It is a broad-based 
multi-city protest. The structure is rotten. It is not 
addressing the needs of the Iranian people. There have been 
bank collapses. People have been left without resources. The 
middle class is diminishing. It is the system itself that is 
the object of this protest. And it may be why it is as 
challenging and significant as it is.
    There are limited resources available to the regime. We 
believe they have been grossly misspent in support of Iran's 
maligned adventures in the region and beyond. The people of 
Iran who may or may not have transparency on those issues, 
probably less rather than more, are reacting to what they see 
at their level, their access to economic opportunity, the 
reliability of a system taking care of them. That is what the 
generator is for this protest, and it is significant.
    Mr. Zeldin. Since the President's decision to withdraw from 
the nuclear deal, what kind of response are you seeing from the 
Iranian regime as far as an interest in staying in or a desire 
to go in a different direction?
    Ambassador Satterfield. In the context of this setting, I 
would say that the regime is deliberating over what it does. 
What does it do to avoid making the situation worse, to avoid 
isolating itself further, to avoid alienating critical European 
and other trading partners more? And I don't think they have 
come to a specific decision.
    We could discuss this more in another setting.
    Mr. Zeldin. Let me yield back. Thank you to the witnesses.
    And at this time, Mr. Curtis actually just arrived. So I am 
going to recognize him now for 3 minutes.
    Mr. Curtis. Thank you. I appreciate everybody's time today 
and the witnesses being here for such a long period of time.
    I would like to talk just a little bit about what is 
happening in Iran with the--several months ago, we saw the 
protests. The administration was very supportive of the 
protesters. And I am kind of curious what we can look forward 
to as far as how we use our resources there to support those 
who need it most and who are supportive of the United States.
    Ambassador Satterfield. I think the best use of our 
resources to ensure that the Iranian people are as aware as 
possible of the decisions being taken by their regime, the 
adventures in which their regime is engaging in a regional 
context, the expenses those adventures require, and allowed to 
communicate amongst themselves. I think that is probably the 
absolute best use of our resources.
    Mr. Curtis. Adventures. That is an interesting term. I 
think we probably know what you are talking about.
    Are we--and by ``we'' I mean Congress--are we doing enough, 
and is there something else that we can be doing?
    Ambassador Satterfield. We have had very strong support 
from the Congress with respect to the programs that we are 
undertaking in Iran. And we are very pleased with the fact the 
support has been sufficient to address the needs we have 
identified.
    Mr. Curtis. Thank you.
    Another situation where we have got well-meaning people 
sometimes being taken advantage of, particularly by terrorist 
groups, is Gaza. And can the U.S. assistance be used to improve 
the situation for the majority of people in Gaza that simply 
want to live their lives without some of those funds going to 
the terrorist organizations? And do you have an opinion on 
that?
    Ambassador Satterfield. The meta-issue, if I may refer to 
it as such in Gaza, is that humanitarian assistance, however 
worthy in addressing the very real suffering of the people of 
Gaza, is a palliative measure. It doesn't address the core 
reasons why the people of Gaza are suffering, which are the 
choices made, and the choices not made, by the Hamas 
leadership. And there is a degree of difference between 
palliation and ultimately addressing root causes of a problem. 
There had been many, many years of measures that attempt to 
address today's problem, today's suffering. They haven't really 
gotten at the core of the problem of Gaza yet, which is Hamas.
    Mr. Curtis. Okay. Thank you.
    I yield my time.
    Mr. Zeldin. The gentleman yields back.
    At this time, the Chair recognizes the gentlewoman from 
Florida, Ms. Frankel, for 3 minutes.
    Ms. Frankel. Thank you.
    I just want to follow up on our discussion today on what is 
going on in Gaza and West Bank with the Palestinians. And just 
to preface that by saying, you know, we all care about Israel's 
security and prosperity. And I stand with Israel. It is an 
enduring situation for me. But I think this is like cutting off 
your nose to spite your face, what your--the attitude that you 
are reflecting here today. Because if you want to stop the 
violence from spilling out even further from Gaza, it seems to 
me that we have to participate in humanitarian assistance. I 
mean, we give, rightfully so, billions of dollars to Israel to 
keep them secure, and yet now you want to take away what is 
millions to prevent the harm that Mr. Connolly laid out here.
    And I just want to read from the Times of Israel today--or 
recently where the IDF chief--that is Israel Defense Forces--
said to warn Gaza war likely if humanitarian crisis persist. 
The IDF's chief of staff, Gadi Eizenkot, warned ministers 
during a cabinet meeting on Sunday that Israel could soon face 
another war with Gaza-based group Hamas as a result of the 
deteriorating humanitarian and economic conditions in the 
coastal enclave. And he further said that, should the 
humanitarian crisis continue to spiral, Israel is liable to 
find itself drawn into another round of fighting with Hamas in 
2018.
    So it seems to me that this hard-line attitude, as I said, 
is like cutting off your nose to spite your face. And I would 
really urge the administration to rethink its position.
    And I yield back.
    Mr. Zeldin. The gentlewoman yields back.
    At this time, the Chair would like to recognize the 
gentleman from Florida, Mr. Deutch, for 3 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    I wanted to return to this topic also and see if we can 
just--I think it will be really helpful, Ambassador 
Satterfield, for the committee, in light of what Mr. Connolly 
and Ms. Frankel said, and others, to understand a little more 
detail about what this review looks like.
    So you said the NSC is leading an interagency review. So I 
would--I ask the following questions. I think we would all like 
to know, to the extent you can share with us, first, what 
specifically is the scope of the review? Mr. Connolly pointed 
out how long we have been waiting. What is the timeline for 
completing the review? Is there a deadline by which it is going 
to be completed, given the humanitarian crisis that exists that 
is, in so many ways, impacting certainly those whose lives are 
being challenged because of the humanitarian crisis and 
ultimately the security in Gaza and the security for our ally 
Israel? So is there a deadline? Who else is participating in 
that review that the NSC is leading? And then ultimately--and, 
finally, I think most importantly, is there a guiding principle 
other than how much should we be contributing and how much 
should others be contributing? Is there a guiding principle 
about what is--how the review is being conducted and what 
American interests are, particularly the ongoing commitment 
that this country has always made when there is a humanitarian 
crisis?
    Ambassador Satterfield. Mr. Deutch, I am very much aware of 
the interest of this committee, Mr. Connolly, Ms. Frankel, and 
others. I will have to take the questions you have posed back 
for a response.
    Mr. Deutch. Okay. Well, then I would just ask this 
followup. Is that a response--the NSC is--somewhere, when a 
review is conducted like this, there is a charge given. So 
where did that come from? How much specificity was in it? I 
think that is what we would like to understand.
    Ambassador Satterfield. I understand your question. I will 
take that back.
    Mr. Deutch. Okay. I appreciate it. If you can take that 
back, and we would very much appreciate that response be 
presented, provided to us in writing.
    I would be happy to yield to Mr. Connolly.
    Mr. Connolly. I thank my friend.
    I just would add, if you would consent, another question, 
which is the one Ms. Frankel raised, which is, is this freeze 
and is this long timeline unwittingly harmful to our ally 
Israel? Because at some point, this becomes a security threat 
to Israel, but for the want of humanitarian assistance, as Ms. 
Frankel pointed out. And I think that is a legitimate policy 
question to be examined and answered.
    I thank my friend.
    Mr. Deutch. And an appropriate question to be included. And 
I thank Mr. Connolly.
    I yield back.
    Mr. Zeldin. The gentleman yields back.
    I would like to thank all the members for participating, 
especially our witnesses today.
    The subcommittee stands adjourned.
    [Whereupon, at 11:56 a.m., the subcommittee was adjourned.]

  
                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
